No. 19-430

 

 

IN THE

Supreme Court of the United States

ATHENA DIAGNOSTICS, INC., OXFORD UNIVERSITY
INNOVATION LTD., and MAX-PLANCK-GESELLSCHAFT
ZUR FORDERUNG DER WISSENSCHAFTEN E.V.,

Petitioner,
v.

MAYO COLLABORATIVE SERVICES, LLC, dba Mayo
MEDICAL LABORATORIES, and MAYO CLINIC,

Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Federal Circuit

BRIEF OF AMICI CURIAE
FREENOME HOLDINGS, INC. AND NEW
CURES FOR CANCERS, INC., IN SUPPORT OF
PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,690 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 1, 2019.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
